<html>
<title> - SERVING SENIORS THROUGH THE OLDER AMERICANS ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                      SERVING SENIORS THROUGH THE
                          OLDER AMERICANS ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 11, 2014

                               __________


                           Serial No. 113-45

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

86-580 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001           
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina       Mark Pocan, Wisconsin
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Ruben Hinojosa, Texas
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                Suzanne Bonamici, Oregon
Matt Salmon, Arizona                 Carolyn McCarthy, New York
Brett Guthrie, Kentucky              Rush Holt, New Jersey
Lou Barletta, Pennsylvania           Susan A. Davis, California
Joseph J. Heck, Nevada               David Loebsack, Iowa
Susan W. Brooks, Indiana             Frederica S. Wilson, Florida
Richard Hudson, North Carolina
Luke Messer, Indiana

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 11, 2014................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3
    Hinojosa, Hon. Ruben, Ranking Minority Member, Subcommittee 
      on Higher Education and Workforce Training.................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Cruz, Yanira, President and CEO, National Hispanic Council on 
      Aging, Washington, D.C.....................................    26
        Prepared statement of....................................    28
    Kellogg, Lynn, Dr., Chief Executive Officer, Region IV Area 
      Agency On Aging, St. Joseph, Michigan......................    15
        Prepared statement of....................................    17
    Niese, Denise, Executive Director, Wood County Committee On 
      Aging, Inc., Bowling Green, Ohio...........................    31
        Prepared statement of....................................    33
    O'Shaughnessy, Carol, V., Principal Policy Analyst, National 
      Health Policy Forum, Washington, D.C.......................     6
        Prepared statement of....................................     9

Additional Submissions:
    Mr. Bonamici:
        Biancato, Robert, B., National Coordinator, Elder Justice 
          Coalition, prepared statement of.......................    64
        Biancato, Robert, B., Executive Director, National 
          Association of Nutrition and Aging Services Programs 
          (NANASP), prepared statement of........................    68
        Snowdon, Shane, Director, Health and Aging Program Human 
          Rights Campaign, prepared statement of.................    66
        Tullis, Eddie, L., Chairman, National Indian Council on 
          Aging, Inc. (NICOA), prepared statement of.............    71
    Chairwoman Foxx questions submitted for the record to:
        Mrs. Kellogg.............................................   153
        Mrs. Niese...............................................   159
        Ms. O'Shaughnessy........................................   164
    Response to questions submitted:
        Mrs. Kellogg.............................................   156
        Mrs. Niese...............................................   162
        Ms. O'Shaughnessy........................................   167
    Mr. Holt:
        Daroff, William, C., Senior Vice President, Public Policy 
          and Director of the Washington Office, The Jewish 
          Federations of North America prepared statement of.....    74
    Mr. Miller:
        Gonzalez, Ariel, AARP Government Affairs, prepared 
          statement of...........................................    78
    Ms. O'Shaughnessy:
        The Aging Network: Servicing a Vulnerable and Growing 
          Elderly Population in Tough Economic Times.............    83
    Mr. Petri:
        Meals On Wheels of America, prepared statement of........   134
    Mr. Thompson:
        Alzheimer's Association, letter dated Feb. 21, 2014......   144
    Mr. Tierney:
        Hon Charles J. Fuschillo, Jr., Chief Executive Officer, 
          Alzheimer's Foundation of America, prepared statement 
          of.....................................................   147

 
                      SERVING SENIORS THROUGH THE
                          OLDER AMERICANS ACT

                              ----------                              


                       Tuesday, February 11, 2014

                       House of Representatives,

                    Subcommittee on Higher Education

                        and Workforce Training,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Petri, Thompson, Walberg, 
Salmon, Guthrie, Heck, Hudson, Hinojosa, Tierney, Bonamici, and 
Wilson.
    Also present: Representatives Kline and Gibson.
    Staff present: Janelle Belland, Coalitions and Members 
Services Coordinator; Lindsay Fryer, Professional Staff Member; 
Amy Raaf Jones, Deputy Director of Education and Human Services 
Policy; Rosemary Lahasky, Professional Staff Member; Nancy 
Locke, Chief Clerk; Daniel Murner, Press Assistant; Krisann 
Pearce, General Counsel; Jenny Prescott, Staff Assistant; 
Nicole Sizemore, Deputy Press Secretary; Emily Slack, 
Professional Staff Member; Alex Sollberger, Communications 
Director; Alissa Strawcutter, Deputy Clerk; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Kelly Broughan, 
Minority Education Policy Associate; Jody Calemine, Minority 
Staff Director; Jamie Fasteau, Minority Director of Education 
Policy; Melissa Greenberg, Minority Staff Assistant; Scott 
Groginsky, Minority Education Policy Advisor; Julia Krahe, 
Minority Communications Director; Brian Levin, Minority Deputy 
Press Secretary/New Media Coordinator; Leticia Mederos, 
Minority Director of Labor Policy; and Megan O'Reilly, Minority 
General Counsel.
    Chairwoman Foxx. A quorum being present, the subcommittee 
will come to order. Good morning, and welcome to today's 
hearing.
    I would like to start by thanking our panel of witnesses 
for joining us to discuss serving our nation's seniors through 
the Older Americans Act.
    Enacted in 1965, the Older Americans Act was established to 
help older individuals continue living independently in their 
homes and remain active in their communities. The Act combines 
federal, state, and local resources to support programs and 
services that address the needs of the senior population, now 
estimated at more than 41 million Americans.
    At the federal level, the Older Americans Act established 
the Administration on Aging, now known as the Administration 
for Community Living, to oversee most of the law's programs. 
However, the Act largely relies on a national network of 56 
state agencies on aging, 629 Area Agencies on Aging, and nearly 
20,000 service providers to plan, coordinate, and deliver 
services to local seniors.
    Using formula-based grants authorized under Title III of 
the law and other funding sources, state and Area Agencies on 
Aging develop programs tailored to meet the needs of local 
seniors. These programs provide supportive services such as 
transportation to and from doctors' offices and pharmacies, 
financial support for senior centers and family caregivers, and 
disease prevention and health promotion activities.
    But the Older Americans Act is perhaps best known for 
supporting key nutrition services, such as group and home 
delivery meal programs, the latter being more commonly known as 
Meals on Wheels. States match 15 percent of their federal grant 
to ensure local agencies can provide nutritious meals to the 
elder population most in need. In fiscal year 2011, the most 
recent data available, more than 223 million meals were served 
to approximately 2.5 million people.
    The Older Americans Act plays a vital role in helping 
seniors access services that promote health, independence, and 
longevity. In fiscal year 2010 alone the law's programs served 
nearly 11 million older Americans and their caregivers.
    As we work toward reauthorizing the Older Americans Act, we 
must acknowledge the law faces challenges. The population of 
senior citizens has changed dramatically since the law was 
first drafted in the 1960s.
    U.S. Census projections estimate the number of Americans 
age 65 and over will increase from 40 million in 2010 to 72 
million in 2030. This means that for the next 19 years roughly 
10,000 baby boomers will turn 65 every day.
    As a result, many are concerned that the Older Americans 
Act cannot effectively meet the needs of the rapidly growing 
senior population, especially amid current fiscal constraints.
    As we explore ways to strengthen the law, it is critical we 
seek to enhance program coordination and efficiency so that we 
may better serve those with the greatest social and economic 
needs. Equally important is preserving the law's federalist 
structure, which balances a national framework of programs and 
funding with significant local flexibility in order to 
effectively meet the needs of local seniors.
    Last year the Senate Committee on Health, Education, Labor, 
and Pensions approved the Older Americans Act Reauthorization 
Act of 2013. Today we have the opportunity to begin the 
committee's process of exploring the best ways to improve the 
law's flexible policies and targeted programs that are 
essential to providing care for America's seniors.
    I look forward to working with my colleagues in a 
bipartisan effort to reauthorize the Older Americans Act and 
help seniors age with dignity and comfort.
    With that, I yield to my colleague, Mr. Ruben Hinojosa, the 
senior Democrat member on the subcommittee, for his opening 
remarks.
    [The statement of Chairwoman Foxx follows:]

 Prepared Statement of Hon. Virginia Foxx, Chairwoman, Subcommittee on 
                Higher Education and Workforce Training

    Good morning and welcome to today's hearing. I'd like to start by 
thanking our panel of witnesses for joining us to discuss serving our 
nation's seniors through the Older Americans Act.
    Enacted in 1965, the Older Americans Act was established to help 
older individuals continue living independently in their homes and 
remain active in their communities. The Act combines federal, state, 
and local resources to support programs and services that address the 
needs of the senior population - now estimated at more than 41 million 
Americans.
    At the federal level, the Older Americans Act established the 
Administration on Aging, now known as the Administration for Community 
Living, to oversee most of the law's programs. However, the Act largely 
relies on a national network of 56 state agencies on aging, 629 area 
agencies on aging, and nearly 20,000 service providers to plan, 
coordinate, and deliver services to local seniors.
    Using formula based grants authorized under Title III of the law 
and other funding sources, State and Area Agencies on Aging develop 
programs tailored to meet the needs of local seniors. These programs 
provide supportive services such as transportation to and from doctor's 
offices and pharmacies; financial support for senior centers and family 
caregivers; and disease prevention and health promotion activities.
    But the Older Americans Act is perhaps best known for supporting 
key nutrition services, such as group and home-delivery meal programs, 
the latter being more commonly known as Meals on Wheels. States match 
15 percent of their federal grant to ensure local agencies can provide 
nutritious meals to the elder population most in need. In Fiscal Year 
2011, the most recent data available, more than 223 million meals were 
served to approximately 2.5 million people.
    The Older Americans Act plays a vital role in helping seniors 
access services that promote health, independence, and longevity. In 
Fiscal Year 2010 alone, the law's programs served nearly 11 million 
older Americans and their caregivers.
    As we work toward reauthorizing the Older Americans Act, we must 
acknowledge the law faces challenges. The population of senior citizens 
has changed dramatically since the law was first drafted in the 1960s. 
U.S. Census projections estimate the number of Americans age 65 and 
over will increase from 40 million in 2010 to 72 million in 2030. This 
means that, for the next 19 years, roughly 10,000 Baby Boomers will 
turn 65 every day. As a result, many are concerned that the Older 
Americans Act cannot effectively meet the needs of the rapidly growing 
senior population - especially amid current fiscal constraints.
    As we explore ways to strengthen the law, it is critical we seek to 
enhance program coordination and efficacy so that we may better serve 
those with the greatest social and economic needs. Equally important is 
preserving the law's federalist structure, which balances a national 
framework of programs and funding with significant local flexibility in 
order to effectively meet the needs of local seniors.
    Last year the Senate Committee on Health, Education, Labor, and 
Pensions approved the Older Americans Act Reauthorization Act of 2013. 
Today we have the opportunity to begin the committee's process of 
exploring the best ways to improve the law's flexible policies and 
targeted programs that are essential to providing care for America's 
seniors.
    I look forward to working with my colleagues in a bipartisan effort 
to reauthorize the Older Americans Act and help seniors age with 
dignity and comfort. With that, I yield to my colleague, Mr. Ruben 
Hinojosa, the senior Democrat member of the subcommittee, for his 
opening remarks.
                                 ______
                                 
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    Today's hearing will focus on the vital importance of the 
Older Americans Act in serving our nation's older adults. Our 
distinguished panel of witnesses includes Dr. Yanira Cruz, 
executive director of the National Hispanic Council on Aging.
    I personally want to thank Dr. Cruz for bringing a very 
unique perspective to this hearing and for sharing her 
expertise on the Hispanic elderly and the many diverse 
populations you have worked with.
    Over the next 20 years the proportion of the U.S. 
population over age 60 will dramatically increase, as our 
chairwoman pointed out, as 77 million baby boomers reach 
traditional retirement age. According to the U.S. Census 
Bureau, by 2030 more than 70 million Americans--twice the 
number in 2000--will be 65 and older. Older Americans will 
comprise 20 percent of the U.S. population, representing one in 
every five Americans.
    Our nation's aging populations is also becoming 
increasingly diverse, with Latinos; African-Americans; Asian-
Americans; Native Americans; and lesbian, gay, bisexual, and 
transgender seniors comprising a larger segment of the elder 
population.
    In light of these significant demographic shifts, the 
committee must work together to continue to improve the law and 
to adequately fund OAA programs.
    As you know, OAA was passed in 1965 to address concerns 
over the lack of community and social services for the elderly. 
Today a range of services, including health, nutritional, and 
social supports, and job training provided through the OAA 
programs remove the barriers to economic and personal 
independence for older adults.
    In recent years the Act has been expanded to cover long-
term care ombudsman and family caregiver support. OAA programs 
reduce costly institutional care and medical intervention by 
focusing on in-home and community-based long-term care. 
Targeted spending on programs authorized by OAA makes it 
possible for older adults to stay in their homes, helping to 
reduce those costs.
    While OAA programs are available to all Americans 60 years 
or older and require no income eligibility for services, OAA 
programs also target resources to seniors with the greatest 
economic and social need. Notably, a 2012 GAO report found that 
low-income, limited English-speaking, minorities, and very 
elderly populations had higher need for OAA services than their 
counterparts.
    Finally, despite bipartisan support for these OAA programs 
and the sharp increases in the aging population, OAA programs 
have been inadequately funded for several years. What is more, 
in my congressional district in Deep South Texas there are 
older adults who are victims of elder abuse and financial scams 
that many times go unreported.
    Low-income seniors in South Texas also experience food 
insecurity. This is clearly unacceptable to me and to members 
of our committee. In my view, adequately funded OAA programs 
and better financial literacy programs for seniors could help 
to address these issues.
    As this committee considers the reauthorization of OAA, I 
ask my colleagues to put our nation's seniors first. OAA 
programs have had longstanding bipartisan support and older 
Americans deserve nothing less.
    With that, Madam Chair, I yield back.
    [The statement of Mr. Hinojosa follows:]

  Prepared Statement of Hon. Ruben Hinojosa, Ranking Minority Member, 
        Subcommittee on Higher Education and Workforce Training

    Thank you, Chairwoman Foxx.
    Today's hearing will focus on the vital importance of the Older 
Americans Act (OAA) in serving our nation's older adults. Our 
distinguished panel of witnesses includes Dr. Yanira Cruz, Executive 
Director of the National Hispanic Council on Aging (NHCOA). I 
personally want to thank Dr. Cruz for bringing a unique perspective to 
this hearing and for sharing her expertise on the Hispanic elderly and 
diverse populations.
    Over the next 20 years, the proportion of the U.S. population over 
age 60 will dramatically increase, as 77 million baby boomers reach 
traditional retirement age. According to the U.S. Census Bureau, by 
2030, more than 70 million Americans - twice the number in 2000 - will 
be 65 and older. Older Americans will comprise nearly 20 percent of the 
U.S. population, representing one in every five Americans.
    Our nation's aging population is also becoming increasingly 
diverse, with Latinos, African Americans, Asian Americans, Native 
Americans, and Lesbian, gay, bisexual, and transgender (LGBT) seniors 
comprising a larger segment of the elderly population.
    In light of these significant demographic shifts, this committee 
must work together to continue to improve the law and to adequately 
fund OAA programs.
    As you know, OAA was passed in 1965 to address concerns over the 
lack of community and social services for the elderly. Today, a range 
of services, including health, nutritional, and social supports and job 
training provided through the OAA programs remove barriers to economic 
and personal independence for older adults. In recent years, the Act 
has been expanded to cover long-term care ombudsmen and family 
caregiver support.
    OAA programs reduce costly institutional care and medical 
intervention by focusing on in-home and community based long-term care. 
Targeted spending on programs authorized by OAA makes it possible for 
older adults to stay in their homes, helping to reduce costs.
    While OAA programs are available to all Americans 60 years or 
older, and require no income eligibility for services, OAA programs 
also target resources to Seniors with the greatest economic and social 
need. Notably, a 2012 GAO report found that low income, limited English 
speaking, minorities, and very elderly populations had higher need for 
OAA services than their counterparts.
    Finally, despite bipartisan support for OAA programs and the sharp 
increases in the aging population, OAA programs have been inadequately 
funded for years.
    What's more, in my congressional district, there are older adults 
who are victims of elder abuse and financial scams that many times go 
unreported. Low-income Seniors in South Texas also experience food 
insecurity. This is clearly unacceptable.
    In my view, Adequately funded OAA programs and better financial 
literacy programs for Seniors could help to address these issues.
    As this committee considers the reauthorize of OAA, I ask my 
colleagues to put our nation's Seniors first. OAA programs have had 
long-standing bipartisan support, and older Americans deserve nothing 
less!
    With that, I yield back.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    Pursuant to committee rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Ms. Carol O'Shaughnessy is a principal research associate 
with the National Health Policy Forum at George Washington 
University in Washington, D.C. Mrs. Lynn Kellogg is chief 
executive officer of the Region IV Area Agency on Aging in 
Southwest Michigan.
    Dr. Yanira Cruz is the president and CEO of the National 
Hispanic Council on Aging. Mrs. Denise Niese serves as the 
executive director of the Wood County Committee on Aging in 
Bowling Green, Ohio.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system.
    You will have five minutes to present your testimony. When 
you begin the light in front of you will turn green; when one 
minute is left the light will turn yellow; when your time is 
expired the light will turn red. At that point I ask that you 
wrap up your remarks as best as you are able.
    After you have testified, members will each have five 
minutes to ask questions of the panel.
    I now recognize Ms. Carol O'Shaughnessy for five minutes.

   STATEMENT OF MS. CAROL V. O'SHAUGHNESSY, PRINCIPAL POLICY 
    ANALYST, NATIONAL HEALTH POLICY FORUM, WASHINGTON, D.C.

    Ms. O'Shaughnessy. Good morning, and thank you, Chairwoman 
Foxx, Ranking Member Hinojosa, and members of the subcommittee. 
I am pleased to appear before you today to talk about the Older 
Americans Act of 1965.
    As you mentioned, the purpose of the Act is to help people 
age 60 and older maintain maximum independence in their homes 
and communities and to provide a continuum of care for the 
vulnerable elderly. The 1965 law authorized generic service 
programs, but in successive amendments Congress has authorized 
more targeted programs under various titles.
    In 1973, Congress extended the reach of the Act by creating 
authority for sub-state Area Agencies on Aging. This 
decentralized planning and service model has meant that state 
and area agencies are largely in control of their aging agendas 
and can be responsive to state and local needs within federal 
guidelines and priorities. The major function of these agencies 
is to advocate for, plan, and coordinate, and promote a 
coordinated service system for older people.
    Under its seven titles, the Act supports the aging services 
network, comprised, as you mentioned, of 56 state Agencies on 
Aging; over 600 Area Agencies on Aging; thousands of service 
providers and volunteers; and research, demonstration, and 
training initiatives. Total federal funding is about $2 
billion.
    Title III, the largest component of the Act, representing 
over 70 percent of funding, creates authority for four service 
programs.
    The first, the elderly nutrition program, the oldest and 
perhaps most well-known of the Act's services, is intended to 
address inadequate nutrition by providing meals in congregate 
settings and to frail older people in their homes. The 
supportive services program provides home care, adult day 
health care, and transportation services, among others, to help 
impaired older people live independently.
    The family caregiver program provides grants to develop 
caregiver support programs, such as family counseling and 
respite care. The smallest of Title III programs authorizes 
disease prevention and health promotion activities, such as 
nutrition counseling, Medicaid management consultation, and 
immunizations.
    Title III services are available to all older people who 
need assistance, but the law requires that services be targeted 
to those with the greatest economic and social need. Compared 
to all older people, Title III participants are the most 
vulnerable, such as those with advanced age, those who have 
income below poverty, live alone, or have multiple chronic 
conditions and impairments, making Title III services important 
and critical for older people and their families.
    States receive Title III funds according to their relative 
share of the total U.S. population age 60 and older. States 
allocate funds to area agencies based on state-determined 
formula, and then area agencies determine how to best serve the 
target populations defined by law.
    Participants are encouraged to make voluntary contributions 
for the services they receive, and states may implement cost-
sharing policies on a sliding fee scale for certain services. 
Means testing is prohibited.
    Title VII of the Act provides grants to support the long-
term care ombudsman program. About 10,000 paid and volunteer 
ombudsman work to improve the quality of life for residents of 
nursing homes and other residential facilities.
    The Act authorizes other programs, such as elder abuse, 
neglect, and exploitation prevention; community service 
employment; aging and disability resource centers; and grants 
to Native American organizations.
    Over the years, many state and area agencies have broadened 
their responsibility beyond the administration of the Act's 
funding--for example, administering the Medicaid state and 
finance long-term services and supports programs.
    The law was not intended to meet all the community needs of 
older people. Its resources are meant to leverage other funds.
    States are required to match other funds, as you mentioned, 
and aging services network agencies garner other federal and 
nonfederal funds to support aging services. Also, voluntary 
contributions match state and local funds. According to AOA, 
states typically match two or three dollars for every federal 
dollar.
    In conclusion, the mission of the aging services network is 
designed to meet many competing needs of older people. Even 
with its modest funding, the Act has encouraged the development 
and provision of multiple and varied services over the last 49 
years.
    Nationwide, state and area agencies connect thousands of 
providers with people who need assistance. The law allows 
flexibility to state and area agencies to develop programs 
where they see the greatest need.
    Even though the Act's funds reach relatively limited 
numbers of older people, programs are targeted to the most 
vulnerable. Efforts by state and area agencies to act as 
planning, coordination, and advocacy bodies have improved 
policies that affect broader groups of older people.
    As the U.S. population rapidly ages, as you mentioned, the 
sheer number of elderly will continue to present challenges to 
communities across the nation and to the aging services 
network.
    Thank you, and I would be happy to answer any questions you 
may have.
    [The statement of Ms. O'Shaughnessy follows:]
   
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Chairwoman Foxx. Thank you very much.
    I now recognize Mrs. Lynn Kellogg for five minutes.

STATEMENT OF MRS. LYNN KELLOGG, CHIEF EXECUTIVE OFFICER, REGION 
         IV AREA AGENCY ON AGING, ST. JOSEPH, MICHIGAN

    Mrs. Kellogg. Good morning. It is my honor to share how the 
Older Americans Act uses AAAs--Area Agencies on Aging--to 
fulfill its mission.
    The core mission of the Act is to develop comprehensive 
coordinated systems of care. How? Let me reduce the roles of 
AAAs into three core areas, then provide examples of how this 
spurs innovation.
    First role: planning and program development. AAAs are 
charged by the Act with developing a system of home and 
community-based services. It can't be done by the Act alone.
    Beyond administering service dollars, AAAs drive 
development of aging as an economic sector. Leveraging 
resources has resulted in a three-for-one return on every OAA 
dollar spent. The AAA role in bottoms-up local planning 
identifies need areas, which are also potential business 
markets.
    AAAs encourage private and public businesses to expand 
services into need areas using OAA dollars as a catalyst. The 
impact on expansion is robust. A schematic of this is included 
in written testimony.
    Home and community-based service dollars--the services are 
critical for a raft of in-home support services to help with 
daily activities, such as dressing and bathing and eating. The 
Act requires AAAs to identify, assess, and wrap around other 
services in order to target OAA to gap areas.
    AAAs end up connecting disparate services to create a local 
system. The vision of the Older Americans Act to create a 
national means through AAAs to direct services to flexibly fill 
gaps left by other federal, state, and local initiatives is 
genius. It works.
    Caregiver support is the third area. The Act includes the 
National Family Caregiver Support Program, a mechanism to 
support family and friends caring for loved ones. Services 
include caregiver classes on how to cope and provide care 
without toppling one's own health, and provision of respite and 
adult day care, which temporarily provide relief, enabling 
caregivers to go on.
    The Older Americans Act mission to create systems spurs 
many innovations and business startups. Let me give you three 
examples from my own AAA; more are in written testimony.
    Person-centered contracting is one. AAAs provide 
information and care planning. Region IV AAA developed person-
centered contracting within its care management service. Rather 
than awarding a large sum to a single service provider to 
provide X number of units of a predesignated service, available 
funds are placed in a purchasing pool and used on a person-by-
person basis.
    This allows diversity in scope of services purchased and 
the numbers of providers participating. Ability to tailor 
services is enhanced, and impact is based on whether the needs 
of the person are met rather than whether contractual 
obligations are met. The innovation went statewide and quickly 
spread to other states.
    Business startups are common. Recently, AAA--my AAA started 
a PACE, PACE Program of Southwest Michigan, now co-located with 
the Area Agency on Aging.
    Another innovation is working with a hospital and federally 
qualified health clinic to create an interagency care team to 
help patients with high recurrent use of hospital emergency 
departments. Problems at home impact directly patient health 
outcomes. By incorporating the AAA as a partner with the 
medical team, solutions occur and readmissions decrease. Though 
the project is just starting, positive outcomes are already 
reported as a result of planning.
    Using the mission of the Older Americans Act as a 
springboard to systems development, such as my agency has done, 
is not an aberration; it is common. Area agencies operate 
complex local service delivery systems augmented by a range of 
other funders.
    In addition to nine core services required by the Older 
Americans Act, the average AAA offers more than 12 non-mandated 
services. How? Leveraging and partnerships.
    In 2010, AAAs secured funds from an average of seven 
sources other than the Older Americans Act. While the Older 
Americans Act funding remains the critical unifying structure, 
this forms the base, not the breadth.
    Other funding streams view the AAA structure as key. Common 
sources of funding coming through AAAs are state, local, 
Medicaid waiver, grant funds, cost-sharing, and private.
    Collaborations abound. On average, area agencies have 11 
informal partnerships and five formal partnerships.
    The Older Americans Act is about independence and personal 
empowerment. AAAs are engines of change to do this, and the 
existing structure of the Act is well-suited.
    Some concluding observations, considering reauthorization:
    Administrative leanness: With the growth of responsibility, 
it is notable that AAAs remain administratively lean compared 
to virtually all other national systems. The Older Americans 
Act limits administrative dollars, and targeting is done with 
minimal bureaucracy so no change is needed.
    Linkage potential: The Older Americans Act is a not-well-
understood gem that should be paired with other initiatives. 
For example, AAAs stabilize complex, home-based needs in a low-
cost, person-centered ways. If those needs aren't met, other 
goals, like health outcomes, suffer.
    It is imperative that reauthorization recognizes and 
strengthens the role of AAAs wherever feasible to bridge the 
medical or health interventions with the social human service 
side of needed supports. Other acts should be encouraged to 
reach to AAAs as a go-to partner.
    Finally, local flexibility: The core structure of the Act 
to provide bottoms-up planning and local flexibility in systems 
design is the genius of the Older Americans Act. To safeguard 
this flexibility, the transfer authority between all relevant 
Title III service subtitles within the Act must be maintained.
    Thank you for letting me come today.
    [The statement of Mrs. Kellogg follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Foxx. Thank you.
    I now recognize Dr. Yanira Cruz for five minutes.

   STATEMENT OF DR. YANIRA CRUZ, PRESIDENT AND CEO, NATIONAL 
 HISPANIC COUNCIL ON AGING, WASHINGTON, D.C. (DEMOCRAT WITNESS)

    Dr. Cruz. Thank you for the opportunity to testify at this 
hearing.
    I am president and CEO of the National Hispanic Council on 
Aging, the leading national organization working to improve the 
lives of Hispanic older adults, their families, and caregivers. 
We are a member of the Diverse Elders Coalition, a coalition of 
five organizations advocating for aging policies that improve 
the lives of racially and ethnically diverse Americans, 
including American Indian, Asian American, and LGBT 
communities.
    Though the particular needs of each community differ, 
maintaining health and economic security is something all 
seniors strive for, and the Older Americans Act helps them 
achieve this. We know that the OAA and its services work.
    Older adults experiencing the threat of hunger tell us that 
oftentimes their only meal is through a local senior center. We 
also hear stories about selfless caregivers who have received 
training and respite as part of the National Family Caregiver 
Support Program.
    Across the nation older adults are learning new skills and 
going back to work because of training received from the Senior 
Community Services Employment Program. The OAA also helps 
seniors to receive the services and support they need to 
maintain their health and independence, as well as avoid more 
expensive forms of care.
    Sequestration harms the Older Americans Act's ability to 
fulfill its mission. Every day 10,000 people turn age 65. Yet, 
OAA funding has not increased enough to meet this new demand.
    On the contrary, some of its programs have been cut. This 
means that millions of meals are not being delivered to senior 
centers or homes, hundreds of thousands of seniors are losing 
access to daily living assistance, and thousands of low-income 
older adults who are eager to learn new skills are turned away 
from job training.
    Although the OAA has been successful, it is in need of an 
update because the demographics of the seniors it serves are 
changing. Currently there are about 8 million diverse seniors, 
and these numbers will only increase as the general U.S. 
population ages.
    The OAA must respond to these demographic changes. In 
general, diverse older adults experience health inequities and 
disproportionate levels of economic insecurity.
    The American Community Survey estimates that around 5 
percent of Hispanics over age 65 lack health insurance. In 
comparison, less than 1 percent of non-Hispanic seniors lack 
health insurance. This makes the health community services 
offered through the OAA particularly important for Latino 
seniors.
    Similarly, the American Community Survey finds that 19 
percent of American Indian older adults live in poverty. 
African-American seniors--currently the largest group of 
diverse seniors in the country--endure diabetes at 
disproportionately high rates. We know that the Older Americans 
health education and nutrition programs can help reduce these 
inequities.
    At our regional community forums I hear from our older 
adults struggling to access OAA services because of cultural 
and linguistic barriers. A Hispanic older adult in Los Angeles 
explained to us, ``Many of the services do not have employees 
that have the capacity or the patience to help us. There is a 
huge lack of respect--there is a huge lack of respect 
seniors.'' A report by Hispanics in Philanthropy entitled ``The 
Latino Age Wave'' found that there is a lack of places Latino 
seniors can go to access aging services.
    Cultural factors form a barrier to services for LGBT older 
adults as well. Many LGBT seniors have endured a lifetime of 
discrimination based on their sexual orientation and gender 
identity. As a result, many feel uncomfortable seeking out 
services from mainstream providers.
    We strongly support the reauthorization of the Older 
Americans Act. And I know that we are currently in a 
challenging budgetary situation, but the OAA needs more 
funding. The cuts of sequestration are harming the ability of 
our country to care for our older adults.
    Additionally, in recognition of current demographic 
changes, the provision of services in a culturally and 
linguistically competent manner should be made a priority of 
the law. LGBT older adults and people with HIV/AIDS should be 
identified as a population in greatest social need.
    Thank you for the opportunity to testify. I am happy to 
answer any questions you may have.
    [The statement of Dr. Cruz follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Foxx. Thank you, Dr. Cruz.
    I now recognize Mrs. Denise Niese for 5 minutes.

STATEMENT OF MRS. DENISE NIESE, EXECUTIVE DIRECTOR, WOOD COUNTY 
         COMMITTEE ON AGING, INC., BOWLING GREEN, OHIO

    Mrs. Niese. Thank you.
    Chairman Kline, Chairwoman Foxx, Ranking Member Hinojosa, 
and subcommittee members, on behalf of the governing board of 
the Wood County Committee on Aging and the older adults that we 
serve, I appreciate this opportunity to appear before the 
subcommittee.
    As a nonprofit organization with the mission to provide 
older adults with services and programs which empower them to 
remain as independent as possible and to improve the quality of 
their lives, we support and we advocate for the Older Americans 
Act reauthorization.
    We operate seven designated multipurpose senior centers 
throughout Wood County and a centrally located production 
kitchen from which all meals for the senior centers and home-
delivered clients are prepared. As a direct service provider at 
the local level, we work closely with our local Area Agency on 
Aging. While entities such as ours are in local communities 
delivering programs and services, we look to them for technical 
assistance and to best serve our client base.
    In 1977, the Older Americans Act represented 61.6 percent 
of our budget. In 2014, Older American Act funds account for 9 
percent of our total agency budget.
    The remaining 91 percent of our budget are comprised of 
other sources, including a countywide property tax dedicated to 
senior services and donations for meals. As you can see, the 
majority of funds for programs and services in Wood County, 
Ohio, are nonfederal.
    Each component of the Act impacts local communities. With 
this structure from the federal level, with the guidelines and 
accountability inherent, the Act also allows for states, local 
Area Agencies on Aging, and providers like us to have the 
flexibility to develop and implement programs and services that 
meet the needs of our local constituency.
    The flexibility to collaborate with businesses, schools, 
institutions of higher learning, and other partners allow us to 
expand our programs and services to meet local needs. Some of 
the local needs that we are addressing, totally local-funded or 
sponsored, include Club Fit. This is an exercise program we do 
throughout the county and we collaborate with local nursing 
homes who provide and sponsor the physical therapists and 
occupational therapists who come in and lead the exercise 
classes.
    We also do Title IIIB medical escort--nonmedical--
nonemergency transportation. But the unique component that we 
do with this and with these Title IIIB funds, it is a door-
through-door service. So if the older adult needs someone to 
help them out to the car, into the doctor's office, back into 
their home when we get back, it is provided.
    But we also make sure that the level of assistance is in 
keeping with what the older adult wants. We don't impose aid if 
it is not requested.
    Nutrition services are by far the largest program that we 
operate. It continues to grow in participants for both the 
congregate and home-delivered meal service. We are able to 
provide and continue to meet the demand through the use of 
volunteers in the production kitchen as well as delivering 
meals.
    Our staff process all home-delivered meal intakes. The 
client must be 60 years of age and over, live in Wood County, 
and be considered homebound.
    In addition to receiving a hot lunch Monday through Friday, 
each client also benefits from a midday safety check from our 
home-delivered meal drivers. In many instances in our rural 
county, the home-delivered meal driver is the only face-to-fact 
contact with someone on a regular basis.
    We were serving an average of 567 meals per day in 2004 and 
identified that we were nearing capacity of production. It was 
anticipated that within three years it would be necessary to 
create a waiting list for meals--not because of funding, but 
because of production capacity.
    It was at this point that we approached our then-State 
Senator Randy Gardner and then-State Representative Bob Latta, 
who many of you know, to secure state capital funding for a 
construction project. Today we are serving an average of 746 
meals daily, and that is coming from the new production 
kitchen.
    We were fortunate and our community partner, the Bowling 
Green State University, agreed to be the fiscal agent for 
processing the state funds. This official relationship has also 
benefitted BGSU greatly, as the placement of interns, capstone 
projects, and research by graduate and doctoral candidates has 
drastically increased.
    The Older Americans Act has a significant impact on the 
lives of older adults. Impact is measured with established 
standards and measurements for services and annual monitoring 
conducted by the Area Agency on Aging. Pre-and post-testing is 
also conducted for evidence-based programs.
    There are multiple levels of assessment for programs and 
services provided by multipurpose senior centers, including 
accreditation by the National Council on Aging. WCCOA became 
the first senior center in Ohio to receive this designation.
    As the reauthorization process of the Act moves forward, 
please maintain the flexibility that is an integral part of the 
success of this Act. The flexibility permits service providers 
to meet the unique needs of our communities while maintaining 
the high standards of the Act.
    In honoring the genuineness of the Older Americans Act of 
1965, focus on opportunities for the Older Americans Act to be 
used as seed money that will allow service providers to 
leverage other dollars to further develop needed services.
    I hope to inspire you today to consider the legacy that you 
will impart to the senior citizens of today and those that will 
age into the reauthorized Older Americans Act. Thank you.
    [The statement of Mrs. Niese follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairwoman Foxx. Thank you very much.
    I now recognize Mr. Walberg for five minutes for 
questioning.
    Mr. Walberg. I thank the chairman.
    And I thank the panel for being here and for the work that 
you do.
    Mrs. Kellogg, delighted to see that you broke out of the 
subfreezing cold and snow drifts of western Michigan.
    Mrs. Kellogg. Counted my blessings when the skies were 
blue.
    Mr. Walberg. Yes. And here in the balmy climes of 
Washington, D.C., for at least a while.
    Your testimony talks about Area Agencies on Aging being 
experts in stabilizing the home environment for seniors in a 
low-cost, person-centered way, ultimately enabling--and I think 
this is important where possible, and would hope even more 
possibility--enabling seniors to stay in their own homes. We 
had the privilege of having my mother stay in her home--own 
home on our property for 13 years, which impacted her and us 
very well, and hopefully the taxpayer also in that process.
    If you could add some examples of the expertise of the AAA 
you operate, I would appreciate that. And also maybe you could 
comment on other networks and systems, what they could benefit 
from utilizing the expertise of the AAAs so as to avoid 
specifically duplicative services and costs.
    Mrs. Kellogg. Certainly. When we go into the home, I think 
we are one of the few networks that has truly life in the home 
and stabilizing how to live, with the things we all take for 
granted--dressing, eating, running errands, doing chores--is 
our core competency. There are many other--and we send--we have 
nurses and social workers that specialize in that, and then 
have to be aware of everything else that exists in the 
community.
    There are the major federal streams of resources--Medicaid, 
Medicare, so forth--but to know the limits of all those as well 
as what else is being provided locally so that you don't leave 
gaps and try to--that is what I meant by creating a system, I 
think, is a particular expertise.
    I think nowadays, and perhaps this is where you are going, 
with so many people realizing that if people are overwhelmed by 
their--the barriers they face just living daily in the home, 
they sometimes can't focus on other things that might need to 
happen, and I think this happens in the health professions and 
health industries sometimes. So there is a natural reach to--we 
have to work in the home. We have to reach out to the home.
    And we have had many partnerships locally with PACE, with 
the Medicaid waiver through the Older Americans Act is a great 
gap-filler. Explaining to people how those gaps should be 
filled. Many of our colleagues in the health and medical 
professions have a hard time seeing home-based services beyond 
the required follow up, maybe, from a hospitalization, to go in 
and provide short-term, in-home--and that is kind of their 
entire world of in-home.
    And many people need assistance without having a presenting 
health issue. That is the expertise of the area agencies and 
their whole network of providers.
    I think that is what I meant, an unused--not fully utilized 
gem, I think, linking that entire system that understands the 
basis of people just trying to live and what can be fostered to 
maintain life and independence. It is the American dream: 
independence for as long as possible in life, to the end of 
life. And capping that rather than recreating a new system of 
home supports, perhaps through a different, more medical lens 
is critical. I think there is a great potential there for the 
Older Americans Act.
    Mr. Walberg. Can you talk about any relationships you form 
with private businesses to do some of those services?
    Mrs. Kellogg. Yes. Local businesses have been major 
partners in some of our initiatives because I think many of 
them recognize--one, they are good corporate citizens locally, 
but also recognize the increasing reality of the aging society. 
What we have realized for years is now becoming well-known 
everywhere, and they are in--
    Mr. Walberg. Some examples of that?
    Mrs. Kellogg. Employees that are struggling with 
caregiving. People think of caregiving as hands-on and giving 
someone a bath, but an employee who is also trying to remember 
to leave early to run by the store to pick up something for 
someone or to remember to remind somebody of appointment, or 
maybe to stop by and shovel some snow because they are worried 
about somebody slipping are also caregivers.
    And I think the awareness of how important that is in a 
community and how they, as corporate citizens, are--on a 
different note, they are becoming very involved with us in what 
we call--it has many names nowadays--livable communities for 
all ages, universal design. Every municipality, every 
corporation is spending some funds as corporate citizens or 
local planning entities.
    It is important that they recognize the challenges people 
face as they grow old and embrace them for universal design in 
all investments. In that way, some of our larger corporations 
have become major partners with us in championing that cause of 
awareness of aging and reaching to--our largest employer is 
very multifaceted and they are very aware of cultural issues, 
as well, so they have become our champion.
    Mr. Walberg. Thank you.
    My time is expired.
    Chairwoman Foxx. Thank you very much.
    Ms. Wilson, you are recognized for five minutes.
    Ms. Wilson. Thank you, Madam Chair.
    I believe that the most critical time in our lives--happens 
when we begin to get older, and I think that with dementia on 
the rise and Alzheimer's on the rise this is an extremely 
important topic. I have a couple of questions.
    This question is for Ms. Cruz: When you consider the 
positive outcomes of OAA programs, such as increased tax 
revenues and spending power from working seniors, reduced 
emergency visits, and Medicare and Social Security costs, can 
you quantify how much OAA programs benefit both the economy and 
the taxpayer?
    Dr. Cruz. We know that the Older American Act reduces 
complications resulting from chronic illnesses, for example, 
and prevents unnecessary hospitalizations that can be very 
costly.
    So one example is that the cost of providing annual meals 
through the Older Americans Act is approximately $1,300 per 
year. That would be the equivalent probably of a day of 
hospitalization, so that is one example that I can offer you 
that speaks to the value of prevention that comes through the 
Older Americans Act, prevention that can reduce high 
hospitalizations, high complications that are very costly not 
only for the individual, the family, but also for the overall 
society.
    Ms. Wilson. Thank you.
    Would all of you agree that it makes sense to spend more 
money to feed seniors and fund the OAA than to pay much more 
for the emergency health care costs that arise when people are 
hungry?
    Do you agree with that, Mrs. Niese?
    Mrs. Niese. I think when you look at preventative measures, 
they have a large impact, so, yes.
    Dr. Cruz. We are very concerned with the levels of hunger 
in the community, particularly older adults of diverse 
background, and so I would say that is absolutely critical to 
ensure that everyone is aging with dignity.
    Mrs. Kellogg. I think you are spot on in prevention and 
recognizing that preventative quality of all of these services. 
I think meals are critically important.
    In every household it will be a balance. Sometimes you have 
an adult son who is willing to prepare a meal but not give a 
bath, so the issue that presents will vary, so the flexibility 
to respond for all of those needs in a prevention mode is 
critical.
    Ms. Wilson. Thank you.
    Ms. O'Shaughnessy. I think it is very difficult to come up 
with numbers in terms of tax savings or dollars saved through 
the Older Americans Act. However, I would say that when you are 
dealing with a frail older person who prefers to live in a home 
and community-based environment, the services that the Older 
Americans Act provides, such as home care, the meals programs, 
adult day care, is less expensive for most people, unless you 
are totally impaired and need 24-hour care, than going in a 
nursing home. And that is where we have the clearest sort of 
research evidence that there is a savings.
    In addition to that, when you have an older person who is 
being cared for at home, you have family caregivers who are, 
you know, providing the most care. They are the primary 
caregivers for people with many impairments, and that is a cost 
that is not realized. It is a savings that is not realized by 
the federal budget. It is an, you know, unexpended or not able 
to be quantified number, so I think we have to take that into 
account when we are looking at cost-benefit issues.
    Ms. Wilson. Thank you.
    I am very familiar with the PACE program, and we are 
starting a brand new sort of outreach for PACE with veterans. 
And I think it is important for us to understand that it is not 
so much that people are poor that they don't eat; it has a lot 
to do with them, sometimes, remembering to eat and knowing how 
to prepare the food and having the strength, because they have 
to remember to take their medication, they have to remember all 
sorts of things. So if someone brings them a meal it is there 
and they will eat it.
    So it is important. I especially am a champion for Meals on 
Wheels.
    Thank you.
    Chairwoman Foxx. Thank you, Ms. Wilson.
    Dr. Heck, you are recognized for five minutes.
    Mr. Heck. Thank you, Madam Chair.
    And thank all of you for being here today. You know, 
obviously the Older Americans Act appropriately prioritizes 
individuals with greatest economic need and greatest social 
need to receive services to age in place in their homes and 
communities, and, Dr. Cruz, you listed a long list of the 
varying and diverse senior demographics that we face.
    One that was missing, and one that represents a big part of 
my constituency, is Holocaust survivors who are minorities at 
risk of isolation. For them, institutionalization has 
potentially devastating traumatic consequences, due to the loss 
of control and autonomy over their daily life.
    Ms. O'Shaughnessy, if you could tell me how we are doing 
from a national perspective, and perhaps, Mrs. Kellogg, if you 
could tell me from a AAA perspective, how we are doing to 
ensure that the survivors, especially the ones who are living 
in poverty who continue to teach us the most valuable lessons 
about humanity, diversity, perseverance, and the strength of 
the human spirit--how we are doing in making sure they have 
access to the services and supports to enable them to age in 
place with dignity, comfort, and security?
    Ms. O'Shaughnessy. Well, the national data is very clear on 
this in terms of the three million people who receive intensive 
services under the Older Americans Act, and 11 million to 12 
million who receive less intensive services, those services 
such as home care, adult day care, the meals programs, are very 
well targeted to people who have the greatest social and 
economic need, so I think that we do have a well-targeted, and 
the state and area agencies have been known to, you know, take 
that provision under advisement and do outreach strategies to 
make sure that those who are the most vulnerable get services.
    However, research has shown that there are many people who 
need services who are not getting them, either because they 
don't know about the services or there is not enough funding to 
expand services. So that is an issue of concern in terms of 
unmet need among the elderly population that we have to always 
be concerned about. And that is an issue of using resources 
more wisely, but obviously it is also a resource-based issue to 
contend with.
    Mr. Heck. Mrs. Kellogg?
    Mrs. Kellogg. I would agree with that. If your question is 
how do people respond locally, when we target resources there 
are various criteria or discussion points that you talk about 
with someone as to whether they would receive the--basically 
support through--directly through Older Americans Act 
resources. It could be based on age, income self-declaration, 
whether or not they have any support in the home, whether they 
are able to do their daily routines in the home.
    You work through that, and we set--because we receive so 
many calls from people we have a priority system set that no 
one is denied, but when people presenting issues hit into very 
high criteria of high priority, they will be targeted ahead of 
someone who maybe has some concerns but they might be more 
worries than manifesting real in the day to day.
    Mr. Heck. As a AAA, do you interact much with the local 
social service agencies that target specific segments of a 
diverse community to help identify those in needs of service?
    Mrs. Kellogg. Yes. Yes. My area is mostly rural and quite 
diverse culturally, so we have variety of--one of the roles of 
AAAs is also education, so we have tapped for cultural 
sensitivity for providers, and outreach as to how to 
communicate and message the availability of resources, as well 
as language barriers.
    Mr. Heck. Great. Thank you.
    Thank you, Madam Chair. I yield back.
    Chairwoman Foxx. Thank you very much.
    Mr. Tierney, you are recognized for five minutes.
    Mr. Tierney. Thank you very much.
    And I want to thank all of our witnesses here this morning, 
as well, for your testimony.
    Let me try to just cover a couple of areas quickly on that. 
One is respite care.
    I would be appreciative to hear your comments on the 
importance of respite care, whether or not we are putting 
enough resources in that area, because I continually hear from 
people about how difficult it is to continually be responsible 
for a person that is under their care on that, and yet have a 
possibility--a chance to have any respite at all. So if we 
would just quickly go through whoever wants to respond to that 
from my left to right?
    Ms. O'Shaughnessy. Well, respite care is a very important 
service for family caregivers who, as I said, are the primary 
caregiver--primary source of support for impaired older people. 
Respite services can be provided by Title III, and it is a 
Title III-funded service. It comes into play not only in the 
supportive services allotments that states get, but also in the 
family care giving program because there are limited funds for 
respite services.
    But to be honest, I think that, you know, one could always 
do more because of the enormous strains that there are on 
caregivers who might have to care for a person 24/7, you know, 
7 days a week. So that is an important consideration.
    Mr. Tierney. Are we not funding the program in the 
aggregate enough, or are we not allocating resources that exist 
to that priority as opposed to others?
    Ms. O'Shaughnessy. Well, when states get their supportive 
services allotment they decide, you know, what is the most--
what are the most important services that they want to provide. 
Under the Family Care Giving Program it is an identifiable 
service, but under the supportive services allotment there is a 
laundry list of services that people--that area agencies can 
provide and they have to choose among them.
    There are certain priority services, and home care services 
are one of the priority services under Title III, so there 
might be some spending. But again, it is up to the local 
agencies to decide how much to devote to respite care.
    Mr. Tierney. Thank you.
    Mrs. Kellogg?
    Mrs. Kellogg. It is hard to say from the national level 
whether there is enough because it does wrap around other 
resources. In Michigan, we have state funds also targeted 
specifically for respite and day care because of the tremendous 
need for caregiver relief.
    There is also an interesting dichotomy because, although I 
believe that those are incredibly valuable services and they 
are out there, convincing caregivers to use them--people work 
themselves into physical or mental decline, and it is a major 
challenge to have them understand the value of respite day 
care. I think it is an up-and-coming, and will continue to be 
an up-and-coming, growth area because it is hugely prevention-
oriented services to help these caregivers.
    Mr. Tierney. Thank you.
    Dr. Cruz?
    Dr. Cruz. Just to say that as I hear you, I echo what you 
say and say that dementia and Alzheimer's is on the rise, and 
we are very concerned that the demand for caregiving will 
continue to increase, and so not to lose sight of that and to 
keep that in mind as we--you know, as the law gets 
reauthorized.
    Mr. Tierney. Thank you.
    Mrs. Niese?
    Mrs. Niese. As a direct service provider and working in all 
the county communities that we have, one of the things that I 
see are the senior centers are the front door for respite care. 
You have many families, the husband and wife are coming in, the 
wife is using the time at the senior center for her respite; 
the husband is there with her, but she can be engaged in other 
activities, she can be socializing. He is safe; he is doing his 
activities and programs.
    I think one of the things we have to focus on, too, is the 
education for the caregiver, that it is our right to seek help. 
Because that continues to be a challenge with my staff, to get 
caregivers to embrace the opportunities that they have.
    Mr. Tierney. Thank you.
    Thank you all for that.
    And then just quickly, should we be listing LGBT adults as 
a group in largest need?
    Ms. O'Shaughnessy. Well, I think that all people who have 
need for services should have equal access to the services 
under the Older Americans Act. I think that, you know, the Act 
lists a number of groups already, in terms of those people with 
low income, minority status, at risk of institutionalization.
    One of the issues, as I mentioned earlier, was that people 
who need services now are not getting them, so I think it is an 
issue of, you know, do you add another target group to the--
    Mr. Tierney. Well, I am just wondering whether or not you 
are seeing enough particularities with that group as they age 
that they need that special listing on that.
    Mrs. Kellogg, what is your view?
    Mrs. Kellogg. Well, I think in Michigan our State Office on 
Aging has required area plans to include focus on that 
population. In my region, we have conducted sensitivity 
trainings in partnerships with those groups.
    Whether or not something was listed in the Act, I don't 
think--I tend to think a broad sweep is probably the most 
appropriate because it is hard to respond to what are you 
specifically doing for one if you are already becoming active 
in a certain area.
    Mr. Tierney. Fair enough.
    Dr. Cruz?
    Dr. Cruz. Yes. Our research is showing that LGBT elders are 
not fully accessing the current system. They feel isolated, and 
we need to review that.
    Mr. Tierney. Thank you.
    And Mrs. Niese?
    Mrs. Niese. I think we have to look at it at a local level 
and make sure that we are welcoming and we are doing the 
outreach. I think even if it were in the Act, if we as service 
providers are not providing opportunities and making a safe 
place and a welcoming place, even if it is in the Act it is not 
going to be successful.
    Mr. Tierney. Thank you.
    Thank you, Madam Chairman, for your time.
    Chairwoman Foxx. Thank you.
    Mr. Salmon, you are recognized for five minutes.
    Mr. Salmon. Thank you, Madam Chairman.
    The older I get, the more up close and personal this 
becomes, and let me say what I mean. I mean, obviously we are 
all going to be in that situation in the not-so-distant future, 
but right now, dealing with that with my own parents. My 
father, World War II veteran, a hero in my estimation, passed 
away about four years ago. My mom, 92, has been living by 
herself for the last four years since he passed away, and she 
is in the hospital right now with some issues and has finally 
acquiesced and will be--when she comes out of the hospital, she 
will be moving in with my brother and his wife, who are empty 
nesters.
    In about three weeks--well, let me go on. My in-laws, my 
father-in-law was diagnosed about a year ago with Alzheimer's 
disease; he is 84. And my mother-in-law, 84, is kind of at 
wit's end because, you know, she is frustrated and scared and 
doesn't know how to cope completely.
    And in three weeks, they are going to be moving in with my 
wife and I, and we will be caring for them. I know it is a big 
challenge ahead, and in a lot of ways I am kind of frightened.
    But I have got to say, in my younger days I served a 
mission for my church in Taiwan, and one of the things that I 
really loved about that culture--the Chinese culture--is their 
reverence to their elders and their love for the parents, and 
the idea that the responsibility for their parents is equal to 
the responsibility their parents had for them when they were 
children.
    And I am glad we have these programs. They are good. And I 
think that taking care of the most elderly and vulnerable in 
our society is a good function of government.
    I would love to see some kind of a public awareness 
campaign in this country to try to encourage families to be 
families and step up and, you know, to take care of their 
parents and not neglect them and not just forget about them.
    I think a lot of parents who--you mentioned, Dr. Cruz, some 
of them feel really isolated. Maybe they wouldn't feel so 
isolated if their kids would give them a phone call or if their 
kids would visit them once in a while.
    And I know that is not a broad brush. There are a lot of 
good, you know, children that take care of their parents and 
watch out for them, but government is no substitute for the 
love that comes from families. It is great to take care of the 
basic needs, but it is no substitute for love of families.
    And I would really like to see some kind of a, you know, a 
public awareness campaign go across this country to remind 
people that, you know, your family responsibilities continue, 
you know, when your children are grown, and it reverses maybe a 
little bit to the people that loved you and nurtured you and 
brought you into this world.
    And so I am not trying to just sermonize. I get really 
frustrated because I have gone to old folks' homes, and I have 
visited folks that are lonely and abandoned, and I would just 
really like to see all of us maybe focus a little bit more on, 
you know, the family and keeping that together.
    I would like any thoughts that any of you have on that, on 
roles that we can play and maybe making that happen.
    Ms. O'Shaughnessy. Well, so many families are going through 
what your family is going through now, and it is a very 
difficult and stressful time because you see your parents who 
are declining, and it is a very sad thing to watch.
    I do think some of the national organizations have done a 
good job in recent years to try to focus on the family, and I 
just saw an ad, actually, a few days ago. It was an AARP ad 
that had a picture of an older woman and her daughter, who was 
performing different roles in sort of a photo montage, and here 
she was preparing meals, and then she was coordinating her 
doctors' appointments, and she was doing the housecleaning, and 
she was, you know, being a comfort to her mother.
    So I think it was a very telling ad because it speaks to 
what you are talking about, and I do think that some of the 
national organizations--and even in the Older Americans Act, by 
recognizing family caregiving as a--as one of the funded 
services was a big step forward in 2000 when Congress added 
that new program.
    So I think that there--the research shows, you know, that 
families are primary caregivers, despite, you know, kind of--we 
hear about families moving so far away, but eventually--and I 
think most people live within a certain geographic range of 
their family so they are available. It is just the stress that 
happens when you are--you have multigenerational families like 
your own there.
    Chairwoman Foxx. Thank you very much.
    Mr. Hudson, you are recognized for five minutes.
    Mr. Hudson. Thank you.
    And I thank the witnesses for your testimony today and the 
time you have given us. Very informative.
    I have a question for Ms. O'Shaughnessy. I understand the 
Older Americans Act Title III funding formula generally 
distributes funds to states based on the population of older 
Americans in the state. However, the previous reauthorization 
back in 2006 included a ``hold harmless'' provision that 
prevents states from falling below their 2006 funding levels. 
This does not take into account current populations; in fact, 
it is based on the 2000 population--2000 census.
    What formula changes would you suggest to ensure that 
states are receiving their fair share of available funds while 
recognizing the current fiscal challenges we face, and what are 
some of the issues we need to consider?
    Ms. O'Shaughnessy. Well, Mr. Hudson, that is a very 
difficult and complicated question, and whenever you change a 
formula that has sort of been a longstanding formula, there are 
winners and losers. And usually there was a change in the 2006 
amendments to the formula, so a ``hold harmless,'' as you 
mentioned, was added. And a ``hold harmless'' is always a 
compromise because you don't want to negatively affect certain 
states while certain states are being positively affected. So 
it is a balancing issue.
    I think in the past there have been various proposals to 
change the formula to look at, for example, a function of need 
of older people, how many individuals within a state have 
limitations in activities of daily living, or, you know, 
disability issues. There have been proposals to look at a 
state's low-income and minority older population. You can look 
at age as a proxy for disability, for example.
    All those things have tradeoffs because some of the 
southern states have higher proportions of people with 
disabilities, and you kind of get into--not to overgeneralize, 
but you get a Rust Belt, Sun Belt kind of issue. You have 
growing populations in certain states, maybe like North 
Carolina and other states in the South and the Southwest, 
versus other states in the North-Northeast who have higher 
proportions of the old population, as people have migrated.
    So what you have to really do is look at the numbers and do 
formula runs that would look at the numbers. I am making work 
for my colleague in the audience here, who works for CRS, but 
it--you really have to look at the numbers and see where people 
come in, and it becomes a very divisive issue in some cases 
when you change a formula.
    So a ``hold harmless'' is a way to kind of moderate that--
those influences. I don't know if that helps, but--
    Mr. Hudson. It does. And obviously the concern of a state 
like North Carolina, with a growing population, the--you know, 
the ``hold harmless'' seems to penalize states that have a 
growing seniors population, and certainly I want to assure that 
North Carolina seniors are not being shortchanged because of, 
you know, shortsighted errors in Washington or the way we are 
doing the formula.
    Well, how important is it for states and Area Agencies on 
Aging to have maximum flexibility in how they serve seniors? 
Are there areas where your organization could benefit from 
increased flexibility?
    I guess Mrs. Kellogg?
    Mrs. Kellogg. You are asking if there are areas that we 
should have increased flexibility?
    Mr. Hudson. Yes.
    Mrs. Kellogg. It is a hard issue because I tend to believe 
maximum flexibility is best, and you have--at the same time, 
there are specific needs that people want to make sure are 
addressed. So right now the Act does look at some areas of 
categorical limits or recognition of a need area and then stop.
    That is why I mentioned the construct of the Act right now 
is probably okay the way it is. It provides some categories of 
very important need--legal, meals, other things--number of--
percentages of in-home, different things. But if you start 
drilling down too much--because they are all real and people 
really have those needs--you end up losing the flexibility to 
wrap around what is happening in the community in the local 
level. And I truly believe that is paramount to really making 
the whole Act efficient of how it can do its job.
    So in a perfect world, I don't think there should be hardly 
any limits. The way it is now, it points out high-need areas, 
sets some limits, and leaves it alone at that point. I think 
that is probably a good way to continue and allowing maximum 
flexibility within the different service titles as they are 
now.
    Mr. Hudson. Great. Thank you.
    Madam Chair, I yield back.
    Chairwoman Foxx. Thank you.
    Ms. Bonamici, you are recognized for five minutes.
    Ms. Bonamici. Thank you very much, Chair Foxx, and thank 
you for scheduling this hearing about this important issue.
    I apologize that I wasn't here for your testimony. We are 
trying to do two things at once this morning. But I have 
reviewed the testimony.
    I want to start by saying that during the past year a 
bipartisan Senate coalition has worked with diverse 
stakeholders to report language that makes important updates to 
the Older Americans Act. And I have been honored to work with 
them and our ranking member, Mr. Hinojosa, and we will soon be 
introducing legislation that builds on what the Senate has 
started and includes other key updates about our most 
vulnerable populations. And it is my hope that as this 
committee moves forward with the reauthorization of the Older 
Americans Act that we can work together on both sides of the 
aisle to make important targeted updates to ensure that this 
law continues to serve our seniors.
    And I want to start by asking Dr. Cruz--thank you for your 
testimony today, especially for advocating for aging policies 
that meet the needs of diverse elders. You note in your 
testimony that diverse seniors generally experience 
disproportionate levels of economic insecurity, and 
unfortunately this seems to be true for many LGBT elders.
    Indeed, advocates point out that LGBT elders face higher 
poverty rates than heterosexual elders. They are also twice as 
likely to be single, three to four times as likely to be 
without children.
    This is an important issue and Representative Hinojosa and 
I are working on our legislation, and we have provisions that 
will strengthen services and access for LGBT seniors. 
Specifically, the bill will designate LGBT seniors as a 
population in greatest social need to ensure that they can get 
culturally competent care that addresses their needs.
    Can you explain how the Older Americans Act falls short 
currently in serving LGBT elders and how designating LGBT 
seniors as a population in greatest social need would expand 
access to services for this group of Americans? Thank you.
    Dr. Cruz. Thank you for your comments and for your service.
    I think the current situation, what our research is showing 
is that LGBT elders are not fully accessing services. The 
infrastructure that is currently in place--clinics, for 
example, or community centers--are not providing culturally 
competent services for LGBT populations, and so therefore, they 
are delaying services, they are delaying preventive services 
that could, you know, reduce costly complications, chronic 
diseases down the road.
    So that is the--what our research is showing us. And we 
have looked at California, we have looked at New York, D.C., 
and Florida.
    Ms. Bonamici. Thank you.
    And I have a follow-up question, too. I think we can all 
agree that preventing the mistreatment of elders should be a 
priority of the Older Americans Act.
    The National Center on Elder Abuse found that despite 
current reporting laws, many cases of elder abuse and neglect 
go unreported. And the center cites several recent studies 
estimating that up to 10 percent of respondents have been 
abused in the past year.
    The bill that Representative Hinojosa and I are developing 
would establish a unified database to collect information on 
elder abuse, exploitation, and neglect, and it would also 
ensure that those who work directly with older adults receive 
training in elder abuse prevention and detection. What steps 
can we take to prevent elder abuse, neglect, and exploitation, 
and are there particular programs that have been successful--I 
am a big supporter of evidence-based programs--at preventing 
elder abuse and that may be worth expanding?
    And I would be interested in hearing from the other 
witnesses on this, as well.
    Dr. Cruz, do you want to start, or--
    Ms. O'Shaughnessy. Well, as you say, there are many cases--
and plus, we don't know exactly how many cases go unreported. 
There are two segments in the Older Americans Act. There is a 
small program for elder abuse, neglect, and exploitation 
prevention. It is one of the smallest programs in the Act.
    However, there is also the Elder Justice Act that was 
enacted as part of the ACA, and part of that program, although 
I don't think it has 2014 funding. It did receive a couple of 
years of funding, but one of the components of that Act is to 
provide training to local officials about being aware of elder 
abuse issues, and I think you might want to look at building on 
that program for your legislation.
    Ms. Bonamici. Thank you.
    Mrs. Kellogg?
    Mrs. Kellogg. It is ironic. In Michigan, we have been 
championing over the last year a package of 11 bills that would 
not bring money but policy and process changes to raise 
awareness of elder abuse in Michigan, and I think we have got 
now eight of the 11 passed.
    And I would echo Carol's comments in that has brought 
together--we do training for--and education. That is one thing.
    But then bringing together the different emergency 
responders as well as the services providers and those--the 
dialogues across systems have been very, very helpful. So it is 
just a matter of doing that and then making sure you have 
policies in place that can put teeth in laws if you find 
issues.
    Ms. Bonamici. Thank you.
    And I see that my time is expired, but I would be 
interested in hearing from the other two witnesses perhaps in 
writing after the hearing. Thank you very much.
    I yield back. Thank you, Chair Foxx.
    Chairwoman Foxx. Thank you, Ms. Bonamici.
    Mr. Guthrie, you are recognized for five minutes.
    Mr. Guthrie. Thank you, Madam Chairman. I appreciate that.
    And thank you all for being here.
    I want to point out, it was mentioned about sequestration 
and the programs, and 10,000 people who are--a day who are 65 
or--are turning 65 every day, and just note that we are going 
to spend hundreds of billions of dollars over the next budget--
within this next budget on people 65 and older. As a matter of 
fact, when my daughter is my age in 30 years, 100 percent of 
federal revenues, under the current budget if we don't do 
anything different,- will be Social Security, Medicare, and 
Medicaid, and a substantial Medicaid goes to the seniors. So 
that is squeezing out these programs and that is what we need 
to address when they work that way.
    First, Mrs. Kellogg the Areas on Aging--the agencies--you 
said you do needs assessment and then you try to put your 
services to what your needs are. What tools do you do to do 
needs assessment? Is it roundtables, discussions, surveys?
    Mrs. Kellogg. We started off in our agency doing a series 
every three years of random digit dialing in partnership with 
the university. We knew if we talked solely to one constituent 
group we would get that perspective, so we went with a kind of 
a more of a approach that looked at barriers to independence 
rather than asking about specific services and really quizzed 
people on what kind of barriers were they having.
    Over a sequence of years, and doing that three--I think 
three or four times--it pointed us directly towards the whole 
array of long-term supports and services that were needed. 
After that direction was firmly entrenched, we ended up getting 
involve, because we have been around awhile in information 
services. We have a very robust call center as well as care 
management that goes out to the home and talks to people.
    Nowadays you look at what is the nature of those calls 
coming in? What needs are able to be met and what aren't? We 
get I think it is close to 15,000 reached through that call 
center every year, and we talk about what are the unmet needs, 
what are people having?
    So that becomes that kind of cold call, as well as when we 
send people out to the home, maybe in a care management-type 
mode, what are the things that you can find solutions for? What 
can't you? And now they have become our drivers.
    Then the individual help with a person becomes much more of 
an individual process: What is that person facing? And that is 
the person-centeredness of today's world, just hearing what 
they view their barriers are rather than trying to craft a 
pigeon hole for them.
    Mr. Guthrie. Exactly. Thank you.
    And, Mrs. Niese, in your testimony you talked about you 
have flexibility to collaborate with businesses, corporations, 
and K-12. Could you give an example of a collaboration--or one 
or two--that has worked and been successful?
    Mrs. Niese. Well, the collaboration with the local nursing 
homes, where we can offer exercise programs with the certified 
P.T.s--physical therapists and occupational therapists. Other 
things that we do--again, people realize the market of the baby 
boomers hitting 60 and 65 and they are a whole new client base. 
And so we have many organizations--home health care agencies, 
pharmaceuticals, all of that are wanting to educate on their 
programs and services. We are not letting them sell.
    But in order for them to provide that education, we are 
asking them to contribute and support. Maybe they are going to 
sponsor one of our events so that we can have seniors there who 
could otherwise not afford to participate in cholesterol 
screenings and that. So they are underwriting services that 
older adults who don't have the financial means can actually 
participate in.
    Mr. Guthrie. Well, thanks.
    That leads to Ms. O'Shaughnessy. In your testimony, you 
mentioned that participants in Title III are encouraged to make 
voluntary contributions for services they receive and states 
may implement cost-sharing policies for certain services. Do 
you know how many states have implemented cost-sharing policies 
and how successful they have been?
    Ms. O'Shaughnessy. Well, from the latest survey information 
that we have, about 16 states have, you know, formal, written 
cost-sharing policies, and when states cost-share they--
generally they are for the more high-cost individualized 
services like home care, personal care, adult day care. I think 
why have more states not done--established cost-sharing 
policies? So, voluntary contributions are a part of the Act. I 
mean, people do contribute on a voluntary basis, generally 
generating income through the nutrition programs.
    Mr. Guthrie. Do people contribute for their own service, or 
could it be, like, you could have a pharmaceutical contribute 
to the program and have access to educate on their--
    Ms. O'Shaughnessy. Yes, you could have, I think, you know, 
as witnessed by some of the other speakers today, that, you 
know, they are seeking out businesses to help contribute toward 
services that are provided in the community.
    With respect to the cost-sharing, some states have found it 
very administratively difficult, because even if you have cost-
sharing policies, the law says that you cannot deny services if 
someone cannot contribute. So it becomes sort of a catch-22: 
You might have the policy, but if someone cannot contribute, 
will not contribute, you still have to provide the service, 
especially if they are in the greatest social and economic 
need. So it becomes a little bit of an administrative 
difficulty.
    Mr. Guthrie. Thank you. Thanks for those answers.
    My time is expired. I yield back.
    Chairwoman Foxx. Thank you.
    Mr. Thompson, you are recognized for five minutes.
    Mr. Thompson. Madam Chair, thanks for this hearing.
    Thank you to the witnesses for being here.
    As someone who has spent basically almost 30 years working 
with older adults--started out as a certified therapeutic 
recreation specialist, rehab services manager, and I guess 
somewhat out of self-defense, a licensed nursing home 
administrator towards the end of my career. You know, meeting 
the needs of older adults--and I think thankfully today, with 
science and lifestyle, we--most older adults, my observation, 
age with dignity and independence in place. But for those who 
don't, because of health, illness issues, it is important to 
have these services that you all are in one way or another 
connected with.
    And so, Ms. O'Shaughnessy--or Ms. O'Shaughnessy--I wanted 
to--as the committee begins to reauthorize the Older Americans 
Act, you know, what key principles should guide us how we 
review and reform programs serving older Americans?
    Ms. O'Shaughnessy. I think you have heard from other 
witnesses today in terms of maintaining the flexibility that 
the Act currently has. The decentralized structure of the Act 
is somewhat elegant in the sense that you have agencies that 
have feet on the ground, ears on the ground, hands on the 
ground to provide and to develop services for older people.
    I think you might want to be careful about adding any new 
requirements in this time of fiscal constraint. We may have 
some issues in terms of if you add new requirements on an 
already burdened network, which is trying to serve the needs of 
the growing elderly population, it becomes very difficult.
    I think that one might look at some evaluations that the 
Administration on Aging is conducting now. They have some 
results from various component parts of the network, so I think 
you might want to look at some of the evaluative information 
that is coming out of there--out of the administration.
    Also, I think that--some people have mentioned it, too--I 
think that, you know, we have to think about new ways of 
garnering resources, so making state and area agencies, or at 
least area agencies, more entrepreneurial, looking at being 
trained on business outlooks, and I think that the 
administration has taken the step by awarding to the National 
Association of Area Agencies on Aging a grant so that they can 
help area agencies become more competitive, and to garner, you 
know, outside, private sector resources, as someone just 
mentioned. I think those are the kinds of things you might want 
to look at.
    The other areas, I think, that--the administration has even 
suggested this, that you might want to look at ways to increase 
efficiency and performance across the board, and by perhaps 
having incentive grants for high-performing agencies that 
might, you know, have a little competition going on, but reward 
people for doing, you know good things and--on evidence-based 
research. I think those are the kinds of things I would suggest 
maybe looking at.
    Mr. Thompson. Thank you.
    Speaking of evidence-based research, one of my 
certifications in the past had to do with working with 
individuals with disturbing behaviors--dementia, such as 
Alzheimer's. And this is my observation, and so I was curious 
to just get an affirmation whether I am right or wrong--and I 
am okay either way because people tell me every day that I am 
right and wrong on the same issue, actually--but how 
significant an issue is the increasing evidence and prevalence 
of disturbing behaviors related to dementia, such as 
Alzheimer's--and obviously there are other disorders in that 
family--for this older adult reauthorization, compared to even 
just in 2006, and what should we consider to address this 
rising incidence and the impact on individuals and families?
    I don't have much time but we will start with Mrs. Kellogg, 
and then when we don't get if, if you would submit in writing 
that would be great. I appreciate it.
    Mrs. Kellogg. I was thinking of the other representative's 
comments about his family and involvement. When we put out an 
education or a seminar in our community saying, ``You and Your 
Aging Parent,'' it is flooded every time.
    And when that happens, I think we just need to help people 
be aware and not be so afraid of the disease, and recognize the 
reality so that they can take preventative steps to live life 
even with the disease, as well as people, because they are 
sometimes fearful to come forward, miss the tips--and the 
benefit of each other. We are doing a lot with creating 
confident caregivers, evidence-based caregiver training that 
focuses on dementia, and the ``aha'' moments among participants 
that they are not alone and they can still live life, and how 
do you manage this? I think that is a critical task for us all.
    Mr. Thompson. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. Thompson.
    I would now like to welcome to the committee our 
distinguished colleague from New York, Congressman Gibson. 
Without objection, Congressman Gibson will be permitted to 
participate in our hearing today.
    I hear no objection, so I recognize Mr. Gibson for five 
minutes.
    Mr. Gibson. Well thanks, Madam Chair.
    And I thank the ranking member and all the members of the 
distinguished committee here.
    I thank the panelists for their tremendous testimony today.
    The resources, the support programs that come with the 
Older Americans Act, critical to my district. And it is a very 
popular program. In fact, really the only criticism I hear 
about the program is the name of the Act, and I wonder--but it 
may be something to think about going forward.
    But, you know, as I have worked the issues across the 11 
counties in upstate New York, and listening to seniors, 
seniors' advocates, family members, and caregivers, and then 
meeting with the directors of the Office of the Aging in my 
area, it was clear to me that we needed to push for this 
reauthorization that puts the programs at risk without the 
authorization.
    So, and I worked with my colleagues, Betty McCollum, Tom 
Reed, and we have authored and introduced H.R. 3850, which is a 
5-year reauthorization of the Older Americans Act. And that is 
why I greatly appreciate the Chair allowing me to be here 
today. Our staffs have been working together.
    I also want to mention some of the organizations, I think, 
that were instrumental in authoring the reauthorization: AARP, 
the National Association of Area Agencies on Aging, the 
National Council on Aging, the Meals on Wheels Association of 
America, Experience Works--and that is, you know, the work that 
they do in our district I think is critically important, and I 
think important for generations working together. So many 
seniors who have just remarkable wisdom and the desire to 
impart that on younger Americans, and I think this is a great 
program that helps with that--Easter Seals.
    And so all these advocacy groups working with my colleagues 
and I to get this reauthorization. And so I look forward to 
what I hope is a fruitful set of hearings so that we can get to 
this reauthorization.
    And, you know, I had one question for Mrs. Niese, and it is 
really based on our experiences in upstate New York. I am 
curious to hear your best practices of how you deal with this 
challenge.
    I have a county on the western trace of my district--
Delaware County. The village is Sidney, and Sidney sits right 
on the western edge, and it--you know, within a rock's throw 
you are in Chenango County. And the orbit within 10 miles or so 
pulls everyone to Sidney, but it is a different county.
    And so we have had a challenge because there is a wonderful 
senior center right in Sidney and they service people in 
another county, and so they find a way. They have voluntary 
contributions. But it has been a bit challenging for the 
administration of the program.
    I am curious to know, do you have similar challenges, and 
what you have done about it?
    Mrs. Niese. I certainly do, and a large part of that is 
because we are a bedroom community of Lucas County, Toledo, 
Ohio, and we have many people who live in Lucas County who come 
across into Wood County to one of the senior centers there. We 
also, in our southern part of our county, have folks coming in 
from Hancock County for programs and services.
    Because of the Older Americans Act funds coming in, my 
governing board, our county commissioners allow for that. They 
are treated as everyone else. So it doesn't matter where you 
are coming from. You are a U.S. citizen, it is Older American 
Act dollars, you are welcome to come in.
    Now, since the majority of our funds are raised through our 
senior services levy, there are different call centers 
associated. If someone wants a newsletter and they are out of 
county, they pay more. If someone wants to--well, we cannot do 
medical escort for someone out of county. But if they want to 
go on a trip or an activity they are welcome to come into the 
site and then they can participate as a county resident.
    So you have to work together.
    Mr. Gibson. Yes. So the flexibility in the Act, I think, is 
highlighted--
    Mrs. Niese. Flexibility is phenomenal.
    Mr. Gibson. Yes. Well, thank you. And thank you again for 
all your great work and leadership.
    And, Madam Chair, I will yield back the balance of my time. 
Thank you.
    Chairwoman Foxx. We like guests like you who yield back the 
balance of their time. Thank you.
    Well, I want to thank all of the members of the panel who 
are here today, and because I am chairing and am here the 
entire panel I usually wait till last to ask my questions. And 
when that happens most of my questions get asked ahead of time, 
but you have prompted some issues and some questions for me.
    I appreciated, Ms. O'Shaughnessy, your talking about the 
fact that there are some efforts being made to make the 
programs more efficient and to measure performance and to do 
evidence-based research.
    All of you have mentioned the fact that funds are scarce, 
and people here know that I am a big proponent of 
accountability and efficiency and effectiveness.
    This is a program that, it appears, has done a good job of 
leveraging local and state money. It can be, I believe, a model 
program for the federal government to be involved.
    So I would like to ask--and you don't have to go into great 
detail, and I am hoping you will give me some information in 
writing, so I am not asking for great detail here. I would like 
to give Ms. O'Shaughnessy and Mrs. Kellogg, Mrs. Niese some--an 
opportunity to quickly answer.
    How are ways that you are measuring efficiency, client 
outcomes, and how services are targeted to the most vulnerable 
of the populations? And can we export these metrics to programs 
that aren't using them now? How can we do that? And how can we 
set up a program of reward to help those who aren't doing the 
kinds of things that should be done based on evidence-based 
research?
    So, Ms. O'Shaughnessy, if you could very quickly respond?
    Ms. O'Shaughnessy. I do think that, you know, performance 
standards are a good thing, and at this moment I don't believe 
that there are performance standards. It is very difficult in 
the social service world to have performance standards, but I 
think that you can have a goal and objectives--excuse me.
    So I do think that, you know, as you mentioned, working on 
evidence-based research is absolutely very important, and 
perhaps, you know, developing the performance standards and 
having technical assistance to state and area agencies to make 
sure that those standards are being used. You can't really cut 
off their funding if they don't do it, but you can have, as you 
mentioned, an incentive program, perhaps, to offer the high-
performing agencies in order for them to compete for additional 
funds. I do think that is an option you may want to consider.
    Chairwoman Foxx. Thank you.
    Mrs. Kellogg?
    Mrs. Kellogg. Yes. Obviously one measure, by shifting 
almost everything we do to evidence-based practice is kind of 
copping out to one degree, but building on our research to make 
sure that you are only doing evidence-based practice. When I 
talked about the person-centered contracting, it did raise our 
impact analysis significantly because you actually order a 
service based on a need and then follow up to see if that exact 
service did the need or not, so that is a very direct measure 
for us.
    I do believe that there is a body in--somewhat in the 
academic community studying performance standards for 
satisfaction and empowerment-type issues. People, if they truly 
know--they have overturned every rock and understand their 
situation in life, it does bring peace. And how to measure that 
in today's world is a toughy, so I am glad there are people 
smarter than I am tackling it.
    But I do think that becomes a standard when you are talking 
about programs that at one point are serving people with very 
severe needs that you do not expect to get better.
    Chairwoman Foxx. Mrs. Niese?
    Mrs. Niese. One of the things that we have established 
internally is that all of our locations have a set of standards 
that we have developed that they have to adhere to so that 
residents throughout our service area are receiving equitable 
services. That is very important to us.
    Another thing that we have done is we have collapsed 
administrative costs, in that we have staff at our central 
office that are shared at all seven of those senior centers. 
And so we have two R.N.s and one MSW on staff. Those three 
ladies are running around this county at all the seven senior 
centers and are being as efficient as possible working one-on-
one with those seniors, going into the homes for assessments, 
helping with home repairs.
    So again, sometimes we have to step back and look at our 
own administrative operations and maybe have an economy of 
scale by readdressing that.
    Chairwoman Foxx. Thank you very much.
    I want to thank our distinguished panel of witnesses for 
taking the time to testify before the subcommittee today.
    Mr. Tierney, do you have some closing remarks?
    Mr. Tierney. Just very brief, and to echo your comments, I 
want to thank all of the witnesses for their testimony. It is 
refreshing to see all of us be able to come together on an 
issue and in a matter that I think obviously reflects the 
concern that members of Congress have.
    And thank you for adding your insight into it. It will be 
very useful as we move forward.
    Thank you.
    Chairwoman Foxx. Thank you.
    And as you all said, and others have said here today, we 
know that we have scarce resources. However, we know the 
population--the elderly population--is growing. There is just 
some givens there that we have.
    But I think the--you have raised some really important 
points today that we need to pay a lot more attention to, and 
that is to getting out the information to which programs are 
effective, and to making sure that the hard-earned taxpayer 
dollars are being spent as efficiently and effectively as they 
can be. We do want to take care of our elderly, and it is 
important that we do so in the best manner possible.
    So I will look forward to looking at some of the research 
that has been done and talking to folks who are doing more 
research, and hopefully seeing people go in the direction that 
will help us set up guidelines, set up performance measures 
that would help the money be spent better.
    And I applaud all of you, particularly those of you working 
at the local community to deliver the services, for making 
stone soup, as we said before, taking scarce resources and 
putting them together, because I do think that this is an 
example of good partnerships at the local level. So thank you 
all very much for being here today and getting us started on 
this discussion.
    There being no further business, the subcommittee stands 
adjourned.
    [Additional Submissions by Mr. Bonamici follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
   
    
    [Additional Submissions by Mr. Holt follow:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional Submissions by Mr. Miller follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Additional Submissions by Ms O'Shaughnessy follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    [Additional Submissions by Mr. Petri follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    [Additional Submissions by Mr. Thompson follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Additional Submissions by Mr. Tierney follow:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mrs. Kellogg's response to questions submitted follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Mrs. Niese's response to question submitted follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Mrs. O'Shaughnessy's response to questions submitted 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
